./~               DEPARTMENT OF HEALm
                                HEALTH &
                                       & HUMAN SERVICES                                                                    INSPECTOR GENERAL
                                                                                                                 OFFICE OF INSPECTOR GENERAL


t-£
(--f-È
.... ::
 +~"".,a1z\..-
  "+.tl' aa
                                                                                                                 Office
                                                                                                                 Offce orof Audit
                                                                                                                             Audit Services,
                                                                                                                 Public Ledger
                                                                                                                 Public
                                                                                                                 150
                                                                                                                          Leger Building,
                                                                                                                                               Region III
                                                                                                                                     Servce, Region
                                                                                                                                   Building,Suite
                                                                                                                      S.Independence
                                                                                                                 150 S.  Independence MallMaIl
                                                                                                                                                       III
                                                                                                                                               Suite 316
                                                                                                                                                West
                                                                                                                 Philadelphia, PA 19106.3499
                                                                                                                                      19106-3499
                                                                      APR
                                                                      APR 112009
                                                                             2009

              Report Number:
              Report Number: A-03-08-00203

              Theodore Dallas
              Executive Deputy
                         Deputy Secretary'
                                Secretar'

              Deparent ofofPublic
              Department     PublicWelfare
                                   Welfare
              Health and Welfare Building, Room 234
              Harrisburg,
              Harsburg, Pennsylvania    17105-2675
                          Pennsylvana 17105-2675


              Dear Mr. Dallas:

              Enclosedisis the
              Enclosed            theu.S. u.S.Department
                                                  Deparent ofofHealth Healthand
                                                                              andHuman
                                                                                   HumanServicesServices (HHS), Office   Office of
                                                                                                                                 of Inspector
                                                                                                                                     Inspector
              General
              General (OIG),(OIG),      final
                             final report        report
                                           entitled  "Review entitled
                                                             of       "Review of Pennsylvania's              Determination
                                                                                    Pennsylvana's Determnation of
              of Medicaid
              Disproportonate Share
              Disproportionate             Share Hospital
                                                      Hospital Eligibilty
                                                                   Eligibilityfor
                                                                               forthe
                                                                                   theState-Operated
                                                                                         State-Operated Institutions
                                                                                                                  Institutions for Mental
              Diseases."         We will
              Diseases." We wil forward  a copy forward
                                                of 
                     ths report
                                                              a copy of this  report toto the
                                                                                           the HHS action official  official noted
                                                                                                                             noted onon the
              following page
              following       page for  forreview
                                              reviewand   and any
                                                                any action
                                                                     action deemed      necessar.
                                                                             deemed necessary.

                  HHS action
              The HHS   action official
                                 offcial wil
                                         willmake
                                             makefinal
                                                    final determnation
                                                          determinationasastotoactions
                                                                                actionstaken
                                                                                        taken on
                                                                                              on all
                                                                                                  all matters
                                                                                                      matters reported.
                                                                                                               reported.
              We request
                  request that
                           that you
                                yourespond
                                     respondtotothis
                                                 ths official
                                                      offcial within
                                                              withn 30
                                                                     30 days   from  the date of ths  letter.
                                                                               from the date of this letter.  Your
              response should present any comments or additional information that you believe may have a
              bearng
              bearing on the final determnation.
                                    determination.

              Pursuant to the pnnciples
                              principles ofof the
                                              the Freedom
                                                  Freedom of
                                                           of Information
                                                              Information Act, 5 D.S.C.
                                                                                  U.S.c. § 552, OIG reports
              generally are made available to the public to the extent that information in the report is not
                          exemptions in
              subject to exemptions   in the
                                          theAct.
                                               Act. Accordingly,
                                                    Accordingly, this
                                                                  ths report wil
                                                                             willbe
                                                                                 be posted
                                                                                    posted on
                                                                                           on the
                                                                                              the Internet
                                                                                                  Internet at
              http://oig.hhs.gov.

              If you have any questions or comments about this
                                                             ths report,
                                                                  report, please
                                                                          please do
                                                                                  do not hesitate to call me, or
              contact Robert
              contact Robert Baiocco,
                             Baiocco, Audit
                                      Audit Manager,   at (215)
                                             Manager, at  (215) 861-4486
                                                                 861-4486 or or through  e-mail at

                                                                                 though e-mail  at
              Robert.Baiocco(goig.hhs.gov.
              Robert.Baiocco@oig.hhs.gov. Please refer to report number A-03-08-00203 all
                                            Please refer to report  number    A-03-08-00203    in
              correspondence.

                                                                            Sincerely,


                                                                           )+t~Ù~
                                                                            Stephen Virbitsky
                                                                            Regional Inspector General
                                                                              for Audit Services


              Enclosure
Page 2 -- Theodore
          Theodore Dallas


                    Action Official:
Direct Reply to HHS Action Offcial:

       Gamer
Jackie Garner
Consortum Administrator
Consortium
Consortum for
Consortium   for Medicaid
                 Medicaid and
                          and Children's
                              Children'sHealth
                                         HealthOperations
                                               Operations
Centers for Medicare && Medicaid Services
233 North  MichiganAvenue,
    Nort Michigan    Avenue,Suite
                              Suite 600
                                    600

Chicago, lllinois
Chicago,  llinois 60601
                  60601
Department of Health and Human Services

             OFFICE OF 

        INSPECTOR GENERAL 





 REVIEW OF PENNSYLVANIA’S 

DETERMINATION OF MEDICAID 

 DISPROPORTIONATE SHARE 

HOSPITAL ELIGIBILITY FOR THE 

     STATE–OPERATED 

 INSTITUTIONS FOR MENTAL 

         DISEASES





                    Daniel R. Levinson

                     Inspector General 


                        April 2009

                      A-03-08-00203

                    Office of Inspector General
                                      http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance of HHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments of HHS
programs and operations. These assessments help reduce waste, abuse, and mismanagement and
promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues.
These evaluations focus on preventing fraud, waste, or abuse and promoting economy,
efficiency, and effectiveness of departmental programs. To promote impact, OEI reports also
present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources by
actively coordinating with the Department of Justice and other Federal, State, and local law
enforcement authorities. The investigative efforts of OI often lead to criminal convictions,
administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
for OIG’s internal operations. OCIG represents OIG in all civil and administrative fraud and
abuse cases involving HHS programs, including False Claims Act, program exclusion, and civil
monetary penalty cases. In connection with these cases, OCIG also negotiates and monitors
corporate integrity agreements. OCIG renders advisory opinions, issues compliance program
guidance, publishes fraud alerts, and provides other guidance to the health care industry
concerning the anti-kickback statute and other OIG enforcement authorities.
                             Notices

       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at http://oig.hhs.gov

Pursuant to the Freedom of Information Act, 5 U.S.C. ' 552, Office of
Inspector General reports generally are made available to the public to
the extent that information in the report is not subject to exemptions in
the Act.

 OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable, a
recommendation for the disallowance of costs incurred or claimed, and
any other conclusions and recommendations in this report represent the
findings and opinions of OAS. Authorized officials of the HHS operating
divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY 



BACKGROUND

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements. The Pennsylvania Department of Public Welfare
(the State agency) administers Pennsylvania’s Medicaid program.

Section 1902 of the Act requires State Medicaid programs to “ . . . take into account (in a manner
consistent with section 1923) the situation of hospitals which serve a disproportionate number of
low-income patients with special needs” when determining payment rates for inpatient hospital care.
This requirement is referred to as the Medicaid disproportionate share hospital (DSH) payment
adjustment. Medicaid DSH payments are made to those hospitals that provide services to a
disproportionate number of low-income and uninsured patients.

Institutions for Mental Diseases (IMD) may be eligible for DSH payments to recoup the
unreimbursed costs of providing inpatient care to patients who are either Medicaid eligible or
uninsured. Section 1923(d)(3) of the Act and Attachment 4.19-A of the approved State plan require
that IMDs have a Medicaid inpatient utilization rate (MIUR) of not less than 1 percent to be deemed
a Medicaid DSH. IMDs that have an MIUR of at least 1 percent are eligible for DSH payments.
Medicaid days associated with unallowable inpatients cannot be included in the MIUR
calculation. Section 1905(a) of the Act defines unallowable IMD patients as residents under age
65, except for inpatient psychiatric services provided to individuals under the age of 21. CMS
further clarified that individuals who are inmates of correctional facilities are also unallowable.
In addition, the State plan requires State-operated IMDs to have a low-income utilization rate
(LIUR) in excess of 25 percent to be eligible for a DSH payment.

OBJECTIVE

Our objective was to determine whether the State agency complied with the State plan and
Federal requirements in determining whether State-operated IMDs were eligible for Medicaid
DSH payments.

SUMMARY OF FINDINGS

The State agency did not fully comply with the State plan and Federal requirements in
determining whether State-operated IMDs were eligible for Medicaid DSH payments in State
fiscal year (FY) 2008–09. The State agency included in its calculations of the MIUR percentage
some inpatient days related to unallowable age groups and inmates held in the IMDs by the
State’s criminal justice system. Also, the State agency did not compute an LIUR.



                                                 i
Our correction of the errors in the MIUR calculation did not cause the MIUR to fall below the 1
percent minimum allowable DSH eligibility threshold at any facility. Our calculation of the
LIUR showed that none of the IMDs fell below the 25 percent minimum allowable DSH
eligibility threshold at any facility. Thus, the eight State-operated IMDs were eligible for DSH
payments for State FY 2008–09. However, we are concerned that the State may in the future
overstate the MIUR or the LIUR and, consequently, incorrectly classify one or more IMDs as
DSH eligible.

RECOMMENDATION

We recommend the State agency amend its State plan to comply with Federal requirements
concerning the exclusion of unallowable inpatient days and costs from its MIUR and LIUR
calculations.

STATE AGENCY COMMENTS

In written comments on our draft report, the State agency said that it believes its current MIUR
methodology meets Federal requirement and needs no further modifications. The State agency
said that the State plan does not require a LIUR calculation, but it provided a LIUR calculation
for data collected during State FY 2006–07 and agreed to calculate the LIUR in the future. The
State agency said that Medicaid beneficiaries between 22 and 64 qualify as “low
income/indigent” patients in the calculation of DSH eligibility and agreed to work with CMS
regarding incarcerated individuals. The State agency also called to our attention a technical issue
with the patient payment income data used in our report. The State agency’s comments are
presented in their entirety as Appendix B.

OFFICE OF INSPECTOR GENERAL RESPONSE

We revised Appendix A to clarify patient payment income as noted by the State agency.
However, nothing in the State agency’s comments has given us cause to modify our
recommendation.




                                                ii
                                                   TABLE OF CONTENTS


                                                                                                                                           Page


INTRODUCTION..........................................................................................................................1 


       BACKGROUND ....................................................................................................................1

         Medicaid Disproportionate Share Hospital Program........................................................1 

         Institutions for Mental Diseases........................................................................................1 


       OBJECTIVE, SCOPE, AND METHODOLOGY ..................................................................2 

         Objective ...........................................................................................................................2 

         Scope.................................................................................................................................2 

         Methodology .....................................................................................................................3 


FINDINGS AND RECOMMENDATION...................................................................................3 


       FEDERAL REQUIREMENTS AND GUIDANCE ...............................................................4 


       PENNSYLVANIA STATE PLAN.........................................................................................5 


       UNALLOWABLE INPATIENT DAYS USED TO CALCULATE 

        MEDICAID INPATIENT UTILZATION RATE ...............................................................5 


       LOW-INCOME UTILZATION RATE CALCULATION ....................................................6 


       NONCOMPLIANCE WITH FEDERAL REGULATIONS ..................................................7 


       RECOMMENDATION ..........................................................................................................7 


       STATE AGENCY COMMENTS ..........................................................................................7 


       OFFICE OF INSPECTOR GENERAL RESPONSE .............................................................7 


APPENDIXES

       A - LOW-INCOME UTILIZATION RATE CALCULATIONS FOR STATE-OPERATED
            INSTITUTIONS FOR MENTAL DISEASES

       B - STATE AGENCY COMMENTS




                                                                     iii
                                              INTRODUCTION 


BACKGROUND

Medicaid Disproportionate Share Hospital Program

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements. Within broad Federal guidelines, each State
determines eligible groups, types and ranges of services, payment levels for services, and
administrative operating procedures. The Pennsylvania Department of Public Welfare (the State
agency) administers Pennsylvania’s Medicaid program.

The Omnibus Budget Reconciliation Act of 1981 established the Medicaid Disproportionate
Share Hospital program. Section 1902 of the Act requires State Medicaid programs to “ . . . take
into account (in a manner consistent with section 1923) the situation of hospitals which serve a
disproportionate number of low-income patients with special needs” when determining payment
rates for inpatient hospital care. This requirement is referred to as the Medicaid disproportionate
share hospital (DSH) payment adjustment. Medicaid DSH payments are made to those hospitals
that provide services to a disproportionate number of low-income and uninsured patients.

Institutions for Mental Diseases

Section 1905(i) of the Act defines an Institution for Mental Disease (IMD) as a hospital, nursing
facility, or other institution of more than 16 beds that is primarily engaged in providing
diagnosis, treatment, or care of persons with mental diseases, including medical attention,
nursing care, and related services. Psychiatric hospitals (including State-operated and private
psychiatric hospitals) and inpatient psychiatric residential treatment facilities with more than 16
beds are IMDs. Conversely, not all facilities that provide inpatient psychiatric care are classified
as IMDs. Specifically, facilities that have 16 beds or less are not IMDs, and those facilities that
are not primarily engaged in providing care to persons with mental diseases are not IMDs. The
State agency operates eight IMDs for persons with serious mental illness. 1

Section 1905(a) of the Act precludes Federal funding for any Medicaid services to IMD residents
under age 65, except for inpatient psychiatric services provided to individuals under the age of
21. However, 42 CFR § 435.1009(a)(2) permits Medicaid services in some instances for those




1
 Three of the State-operated IMDs provided services through forensic units as well as psychiatric units. Forensic
units serve individuals who require treatment in highly secure buildings.


                                                         1

under the age of 22. 2 Additionally, CMS clarified that individuals who are inmates of
correctional facilities are also unallowable.

Section 1923(d)(3) of the Act and Attachment 4.19-A of the approved State plan require that
IMDs have a Medicaid inpatient utilization rate (MIUR) of not less than 1 percent to be deemed
a Medicaid DSH. IMDs that have an MIUR of at least 1 percent are eligible for DSH payments
to recoup the unreimbursed costs of providing inpatient care to patients who are either Medicaid
eligible or uninsured. Medicaid days associated with unallowable inpatients cannot be included
in the MIUR calculation. In addition, the State plan requires State-operated IMDs to have a low-
income utilization rate (LIUR) in excess of 25 percent to be eligible for a DSH payment. The
State plan defines the LIUR as the “services provided during the year to persons who were
eligible for Medicaid under the State plan or who received uncompensated or publically funded
care.”

OBJECTIVE, SCOPE AND METHODOLOGY

Objective

Our objective was to determine whether the State agency complied with the State plan and
Federal requirements in determining whether State-operated IMDs were eligible for Medicaid
DSH payments.

Scope

We reviewed Medicaid DSH eligibility determinations for eight State-operated IMDs for State
fiscal year (FY) 2008–09. 3 Because the State determines eligibility based on the second prior
year’s patient census information, we reviewed State-operated IMDs’ inpatient data for State FY
2006–07.

Our objective did not require an understanding or assessment of the State’s overall internal
control structure. Our review was limited to controls over the State’s determination of DSH
eligibility for State-operated IMDs. In addition, we did not review the State’s methodology for
determining the allocation of DSH funds to State-operated IMDs.

We performed this audit in conjunction with our audit of whether DSH payments made to the
eight IMDs for State FY 2006–07 fell within hospital-specific limits.

We performed our fieldwork during March and April 2008 at the offices of the State agency in
Harrisburg, Pennsylvania.


2
 If the individual was receiving the services immediately before he or she reached age 21, the State agency may
continue to claim Medicaid payment for services provided until the earlier of (1) the date the individual no longer
requires the services or (2) the date the individual attains the age of 22.
3
This is one of two audits that review the State agency’s DSH program for IMDs. The other was “Review of
Disproportionate Share Hospital Payments Made by Pennsylvania to State–Operated Institutions for Mental
Diseases,” (A-03-08-00202).


                                                          2

Methodology

To accomplish our objective, we:

   •	 reviewed Federal regulations concerning the establishment of the Medicaid DSH program
      and DSH eligibility,

   •	 reviewed the State plan to ensure consistency with Federal DSH eligibility requirements,

   •	 interviewed State agency officials to gain an understanding of the State agency’s DSH
      program and of its interpretation and implementation of the program and of the State plan
      itself,

   •	 determined whether State-owned IMDs had a valid Medicare participation agreement for
      State FY 2006–07,

   •	 reviewed inpatient census data to determine whether inpatient days included in MIUR
      calculations for State-owned IMDs were in accordance with Federal regulations,

   •	 compiled inpatient cost data for State-operated IMDs as the basis for calculating the
      LIUR in accordance with Federal regulations,

   •	 recomputed the MIUR and LIUR calculations for all State-operated IMDs based on
      allowable Medicaid or low-income inpatient days and costs and redetermined their DSH
      eligibility for State FY 2008–09, and

   •	 shared our results with CMS regional staff and State agency officials.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                          FINDINGS AND RECOMMENDATION

The State agency did not fully comply with the State plan and Federal requirements in
determining whether State-operated IMDs were eligible for Medicaid DSH payments in State FY
2008–09. The State agency included in its calculations of the MIUR percentage some inpatient
days related to unallowable age groups and inmates held in the IMDs by the State’s criminal
justice system. Also, the State agency did not compute an LIUR.

Our correction of the errors in the MIUR calculation did not cause the MIUR to fall below the 1
percent minimum allowable DSH eligibility threshold at any facility. Our calculation of the
LIUR showed that none of the IMDs fell below the 25 percent minimum allowable DSH


                                               3

eligibility threshold at any facility. Thus, the eight State-operated IMDs were eligible for DSH
payments for State FY 2008–09. However, we are concerned that the State may in the future
overstate the MIUR or the LIUR and, consequently, incorrectly classify one or more IMDs as
DSH eligible.

FEDERAL REQUIREMENTS AND GUIDANCE

Section 1923(d)(3) of the Act states, “No hospital may be defined or deemed a disproportionate
share hospital under a State plan under this title . . . unless the hospital has a medicaid [sic]
inpatient utilization rate . . . of not less that 1 percent.” Section 1923(b)(1) of the Act states that,
for hospitals deemed eligible for DSH payments, the MIUR must be at least one standard
deviation above the mean MIUR for hospitals receiving Medicaid payments in the State, or the
hospital’s LIUR must be greater than 25 percent. Section 1923(b)(2) of the Act states that the
MIUR is a fraction, “the numerator of which is the hospital's number of inpatient days
attributable to patients who (for such days) were eligible for medical assistance . . . and the
denominator of which is the total number of the hospital's inpatient days in that period.”

Section 1905(a)(28) of the Act excludes Medicaid payment for all services to “A) . . . any
individual who is an inmate of a public institution (except as a patient in a medical institution; or
(B) . . . any individual who has not attained 65 years of age and who is a patient in an institution
for mental diseases.” Section 1905(a)(xiii)(16) of the Act modifies this exception to allow for
payment of inpatient psychiatric hospital services for individuals under the age of 21.

Additionally, 42 CFR § 435.1009(a)(1) states that Federal funding is not available for services to
“individuals who are inmates of public institutions as defined in Sec. 435.1010.” Pursuant to 42
CFR § 435.1010, “[i]nmate of a public institution means a person who is living in a public
institution. An individual is not considered an inmate if . . . (b) He is in a public institution for a
temporary period pending other arrangements appropriate to his needs.” In a letter to Associate
Regional Administrators dated December 12, 1997, CMS clarified its policy: “It is important to
note that the exception to inmate status – based on ‘while other living arrangements appropriate
to the individual’s needs are being made’ does not apply when the individual is involuntarily
residing in a public institution awaiting criminal proceedings, penal dispositions, or other
involuntary detainment determinations.” CMS clarified that inmates of correctional facilities
are wards of the State, which is responsible for their medical coverage and therefore, the State
agency cannot make DSH payments to cover the cost of their care (SMDL 02-013, August 16,
2002).

In a letter to State Medicaid Directors issued August 17, 1994, CMS also provided guidance that:
“It is important to note that the numerator of the MUR formula does not include days attributable
to Medicaid patients between 21 and 65 years of age in Institution for Mental Disease (IMDs). 4
These patients . . . may not be counted as Medicaid days in computing the Medicaid utilization
rate.”



4
 The Medicaid Utilization Rate (MUR) discussed in the August 1994 CMS letter to State Medicaid Directors is
presently known as the Medicaid Inpatient Utilization Rate (MIUR).


                                                       4

42 CFR § 430.10 requires States to include assurances that the State Plan is in compliance with
Federal law, regulations, and official guidance issued by the U.S. Department of Health and
Human Services.

PENNSYLVANIA STATE PLAN

Attachment 4.19-A, page 15a, of the Pennsylvania State Medicaid plan states: “At least 1 

percent (1%) of the hospital’s total days must be Medicaid days to be eligible for 

disproportionate share hospital payment adjustments.” In addition, “A State operated psychiatric 

hospital is eligible for a disproportionate share payment if its low-income utilization rate [LIUR] 

exceeds 25 percent.” The State plan defines the LIUR as “. . . services provided during the year 

to persons who were eligible for Medicaid under the State plan or who received uncompensated 

or publically funded care.” 


The State plan also provides that “Medical assistance recipients 21 years of age or older but
under 65 years of age who receive services in Institutions for Mental Diseases (IMD), . . . who
are not otherwise eligible for Federal Financial participation for the IMD services, also qualify as
low-income individuals subject to the provisions of the Federal disproportionate share statute
. . .” (Attachment 4.19A, page 25).

UNALLOWABLE INPATIENT DAYS USED TO CALCULATE
MEDICAID INPATIENT UTILIZATION RATE

Using State FY 2006–07 census data, the State correctly determined the eight State-operated
IMDs to be eligible for DSH payments for State FY 2008–09. However, the State incorrectly
computed the MIURs for its eight State-operated IMDs by including unallowable inpatient days
for groups excluded under section1905(a)(28) of the Act. The State included in its calculation
86,305 days related to Medicaid beneficiaries between the ages of 22 and 64 and 551 days
related to individuals being held involuntarily by the State’s criminal justice system. Pursuant to
section 1923(b)(2) of the Act, ineligible beneficiaries may not be included in the calculation of
the MIUR. Table 1 below identifies the unallowable days noted for each State-operated IMD:

                      Table 1: Unallowable Days Used in MIUR Calculation

                                                                                               Total
                                              Unallowable           Incarcerated            Unallowable
    Facility Name                             Age Groups            Individuals 5              Days
    Allentown State Hospital                      11,998                    0                     11,998
    Clarks Summit State Hospital                   8,243                   0                       8,243
    Danville State Hospital                       14,509                   27                     14,536
    Mayview State Hospital                        15,145                   57                     15,202


5
Patient days for incarcerated individuals between the ages of 22 and 64 were included only in the “Unallowable
Age Groups” column.


                                                        5

                                                                                                    Total
                                                    Unallowable                Incarcerated       Unallowable
       Facility Name                                Age Groups                  Individuals          Days
       Norristown State Hospital                         9,602                     442                10,044
       Torrance State Hospital                          14,367                      0                 14,367
       Warren State Hospital                             6,269                     25                  6,294
       Wernersville State Hospital                       6,172                      0                  6,172
       Total                                            86,305                     551                86,856

As shown in Table 2, the State’s inclusion of unallowable days in the MIUR did not disqualify
any IMD from meeting the 1 percent threshold.

                                             Table 2: MIUR Calculation

                                                 Medicaid Days              Total             MIUR Percentage
                                                                           Patient
        Facility Name                              State      OIG 6      Days 7               State     OIG
        Allentown State Hospital                  5,944 4,534               60,694             9.8      7.5
        Clarks Summit State Hospital              9,475 6,118               78,355             12.1      7.8
        Danville State Hospital                   8,759 7,313               62,798             13.9     11.7
        Mayview State Hospital                   10,309 4,944              110,546              9.3     4.5
        Norristown State Hospital                13,188 11,277             142,527              9.3      7.9
        Torrance State Hospital                   7,393       4,003            77,715          9.5      5.2
        Warren State Hospital                     6,799       3,456            66,037          10.3      5.2
        Wernersville State Hospital              12,706       8,757            76,515          16.6     11.4

LOW-INCOME UTILZATION RATE CALCULATION

The State agency did not compute a LIUR as required by the State plan. We therefore calculated
the LIUR for each State-operated IMD in accordance with the State plan, by dividing the IMDs’
low-income service costs by the total hospital costs (see Appendix). As defined by the State
plan, low-income service costs represented “services provided during the year to persons who
were eligible for Medicaid under the State plan or who received uncompensated or publicly
funded care.” State IMD records identify uncompensated care as “self-pay” services for which
full compensation was not received. “Publicly funded care” represents services provided to
General Assistance patients. General Assistance is a State-administered program that provides
financial and medical benefits to low-income families not eligible for cash.



6
    OIG denotes Office of Inspector General.
7
    Total includes all patient days for both psychiatric and forensic units.


                                                               6

As shown in Appendix A, the LIUR for each of the eight State-operated IMDs exceeded the 25
percent threshold, thus allowing for State FY 2008–09 DSH payments.

NONCOMPLIANCE WITH FEDERAL REGULATIONS

The State plan did not fully comply with Federal DSH regulations concerning the exclusion of
unallowable age groups and individuals under the control of the State’s criminal justice system
from the MIUR calculation for State-operated IMDs. As a result, the State agency included
unallowable inpatient days in its determination of DSH eligibility. The State agency said that it
did not compute the LIUR because the DSH days reported by the IMDs far exceed the 25 percent
threshold required by the State plan.

This leads us to express our concern that the State may in the future overstate allowable
Medicaid inpatient days for some IMDs with low MIURs and, consequently, incorrectly classify
one or more IMDs as DSH eligible.

RECOMMENDATION

We recommend the State agency amend its State plan to comply with Federal requirements
concerning the exclusion of unallowable inpatient days and costs from its MIUR and LIUR
calculations.

STATE AGENCY COMMENTS

In written comments on our draft report, the State agency said that it believes its current MIUR
methodology meets Federal requirement and needs no further modifications. Although the State
agency said that the State plan does not require a LIUR calculation, it provided a LIUR
calculation for data collected during State FY 2006–07 and agreed to calculate the LIUR for all
subsequent State fiscal years.

The State agency said that OIG’s MIUR and LIUR calculations incorrectly excluded patient days
for Medicaid beneficiaries between 22 and 64 and incarcerated individuals. The State agency
said that Medicaid beneficiaries between 22 and 64 qualify as “low income/indigent” patients in
the calculation of DSH eligibility and agreed to work with CMS to resolve the status of the
incarcerated individuals. The State agency also called to our attention a technical issue with the
patient payment income data used in our report. The State agency’s comments are presented in
their entirety as Appendix B.

OFFICE OF INSPECTOR GENERAL RESPONSE

We revised Appendix A to clarify patient payment income as noted by the State agency.
However, nothing in the State agency’s comments has given us cause to modify our
recommendation.




                                                7

APPENDIXES 

                                                                                    APPENDIX A
                                                                                      Page 1 of 3

                  LOW-INCOME UTILIZATION RATE CALCULATIONS FOR 

                 STATE-OPERATED INSTITUTIONS FOR MENTAL DISEASES 


The first line of each Institute for Mental Diseases low-income utilization rate calculation
represents patient days and costs for services provided in psychiatric units of the facility. The
calculations for Mayview, Norristown, and Warren State Hospitals include a second line
representing forensic unit costs.

                                  Allentown State Hospital
             Patient Days by Payer Type                           Per      Patient
          Medicaid     Self-Pay       GA 1        Total          Diem       Costs
           4,534        40,090       1,969       46,593        $609.83   $28,413,809
                                                     Medicaid Payments      -288,064
                                                        Patient Payments    -848,927
                                              Low-income Service Costs $27,276,818
                                                    Total Hospital Costs $37,012,989
                                Low-Income Utilization Rate Percentage       73.7


                                Clarks Summit State Hospital
             Patient Days by Payer Type                          Per       Patient
          Medicaid     Self-Pay       GA         Total          Diem        Costs
           6,118        54,605       4,546       65,269       $589.80    $38,495,656
                                                     Medicaid Payments      -273,657
                                                       Patient Payments   -1,032,790
                                             Low-income Service Costs $37,189,209
                                                    Total Hospital Costs $46,213,974
                                Low-Income Utilization Rate Percentage       80.5


                                   Danville State Hospital
             Patient Days by Payer Type                            Per      Patient
          Medicaid     Self-Pay       GA           Total          Diem       Costs
           7,313        35,939       1,158        44,410        $588.88   $26,152,161
                                                      Medicaid Payments      -380,565
                                                         Patient Payments    -907,682
                                               Low-income Service Costs $24,863,914
                                                     Total Hospital Costs $36,980,606
                                Low-Income Utilization Rate Percentage        67.2



1
    GA denotes General Assistance.
                                                                     APPENDIX A
                                                                       Page 2 of 3

                        Mayview State Hospital
   Patient Days by Payer Type                          Per         Patient
Medicaid     Self-Pay      GA          Total          Diem          Costs
 4,944        55,773      14,425       75,142       $564.04      $42,383,094
     0        10,183       3,200       13,383       $750.67      $10,046,217
                                           Medicaid Payments        -455,741
                                             Patient Payments       -948,225
                                  Low-income Service Costs       $51,025,345
                                          Total Hospital Costs   $65,927,816
                      Low-Income Utilization Rate Percentage         77.4



                       Norristown State Hospital
   Patient Days by Payer Type                          Per         Patient
Medicaid     Self-Pay       GA         Total          Diem          Costs
 11,277       70,298       9,636       91,211       $534.27      $48,731,301
      0       19,497       5,292       24,789       $733.58      $18,184,715
                                           Medicaid Payments        -710,193
                                             Patient Payments     -1,248,530
                                   Low-income Service Costs      $64,957,293
                                          Total Hospital Costs   $83,320,929
                      Low-Income Utilization Rate Percentage         78.0



                        Torrance State Hospital
   Patient Days by Payer Type                          Per       Patient
Medicaid     Self-Pay       GA         Total          Diem        Costs
 4,003        49,720       3,991       57,714       $555.42    $32,055,510
                                           Medicaid Payments      -220,100
                                             Patient Payments   -1,011,113
                                   Low-income Service Costs $30,824,297
                                          Total Hospital Costs $43,164,305
                      Low-Income Utilization Rate Percentage       71.4
                                                                    APPENDIX A
                                                                      Page 3 of 3

                         Warren State Hospital
   Patient Days by Payer Type                          Per       Patient
Medicaid     Self-Pay       GA         Total          Diem        Costs
 3,117        38,780       3,614       45,511       $647.91    $29,487,032
   339         5,242         195        5,776       $784.16     $4,529,308
                                           Medicaid Payments      -293,614
                                             Patient Payments     -713,245
                                   Low-income Service Costs $33,009,481
                                          Total Hospital Costs $44,015,188
                      Low-Income Utilization Rate Percentage       75.0



                       Wernersville State Hospital
   Patient Days by Payer Type                           Per       Patient
Medicaid     Self-Pay       GA          Total          Diem        Costs
 8,757        53,202       2,767        64,726       $581.49    $37,637,522
                                            Medicaid Payments      -868,650
                                              Patient Payments   -1,225,183
                                    Low-income Service Costs $35,543,689
                                           Total Hospital Costs $44,492,469
                      Low-Income Utilization Rate Percentage        79.9
                                                                                                  APPENDIX B
                                                                                                    Page 1 of 4




                                                                             1fD)~©~O~~~\
                                        COMMONWEALTIl OF PENNSYLVANIA

                                  DEPARTMENT OF PUBLIC WELFARE
                                                  P.O. BOX 2675
                                                                             lUl   MAR 1 8 200J           ~
                                       HARRISBURG, PENNSYLVANIA 17105-2675
                                                                             I
     Theodore Dallas                              MAR 1 8 2009                               (717) 787-2600
Executive Deputy SecretaI)'                                                              Email;tdallaS@state.pa.us



       Mr. Stephen Virbitsky
       Regional Inspector General for Audit Services
       Department of Health & Human Services
       Office of Inspector General
       Office of Audit Services, Region III
       150 South Independence Mall West, Suite 316
       Philadelphia, Pennsylvania 19106-3499

       Dear Mr. Virbitsky:.

               Thank you for your January 28 letter that transmitted the draft report entitled
       "Review of Pennsylvania's Determination of Medicaid Disproportionate Share Hospital
       Eligibility for the State-Operated Institutions for Mental Diseases" for the period
       July 1, 2008 through June 30, 2009_

                This audit determined that the eight State-Operated Institutions for Mental
       Diseases (IMDs) met the eligibility requirements set forth by Social Security Act Section
       1923, which requires that hospitals meet a Medicaid Inpatient Utilization Rate (MIUR) of
       at least one percent and a Low-Income Inpatient Utilization Rate (L1UR) of at least
       twenty-five percent to receive Disproportionate Share Hospital (DSH) payments.

       Office of Inspector General (DIG) Recommendation: We recommend that the State
       agency amend its State plan to comply with Federal requirements concerning the
       exclusion of unallowable inpatient days and costs from its MIUR and L1UR calculations.

       Department of Public (DPW) Response: The DSH claims made on behalf of the
       State-Operated IMDs are calculated based on methods stated within the State Plan on
       page 15a. When determining the DSH payment based on both the MIUR and L1UR
       eligibility, the State Plan follows the requirements set forth by the Social Security Act,
       which requires the MIUR to be at least 1 percent and the L1UR to be at least 25 percent.
       Therefore, the DPW believes the current MIUR methodology in Attachment 4.19A, page
       15a meets the Federal directive regarding the State-Operated IMDs' eligibility to claim
       DSH payments, and it is unclear how further amendment to the State Plan would modify
       this calculation requirement.

              The Office of Inspector General (OIG) cited a portion of the State Plan within the
       report that does not apply to the State-Operated IMDs, specifically page 25 titled
       "Additional Disproportionate Share Payment", which allows for additional DSH
       payments to Private Inpatient Hospitals. The DPW does not claim for additional DSH
       Payments to State-Operated IMDs. The only DSH claim made for State-Operated IMDs
       is the Disproportionate Share Payment Adjustment described on page 15a.
                                                                                           APPENDIX B
                                                                                             Page 2 of 4




  Mr. Stephen Virbitsky                      -2-


         The DPW is aware that the Social Security Act Section 1905(a)
                                                                          does not allow
 the State-Operated IMDs to charge Medical Assista nce (MA)
                                                                for days that a patient is
 committed to the State-O perated !MD, if that patient is betwee
                                                                 n the ages of 22 and 64;
 however, the DPW is unawar e of any other requirem ent restricti
                                                                  ng DSH paymen ts for
 patients ages 22-64. Therefore, the DPW uses the low-income
                                                                   (indigent) days recorded
 for patients ages 22-64 when determi ning the total uncomp ensated
                                                                       care costs.
         Pennsy lvania's State Plan does not require the DPW to calculat
                                                                             e the L1UR.
  Howeve r, as recommended, the DPW has comple ted the L1UR
                                                                    calculation for census
 data collected during State Fiscal Year (SFY) 2006-07 (Enclos
                                                                   ure A) and plans to
 calculat e the L1UR for all subseq uent state-fiscal years. The
                                                                  percent ages are
 significantly differen t from the OIG's calculation due to the OIG's
                                                                       usage of monthly
 patient pay totals instead of the Year-to-Date (YTO) totals used
                                                                     in all other categories.
 Also, the DPW has included in the Indigent Days uncomp ensated
                                                                        care costs for low­
 income patients betwee n the ages of 22 to 64. The DPW notified
                                                                        the OIG of this
 discrep ancy regarding monthly totals and was told YTD Patient
                                                                    Pay figures are to be
 used in the final report. Based on the DPWs calculation, all of
                                                                   the State-O perated
 IMDs had percent ages over 90 percent for the SFY 2006-07.

       The DPW will utilize the following calculation when determining
                                                                       each State­
 Operate d IMO's percentage:

    •   MA days + Patient Pay Days + Indigent Days = Total Inpatien
                                                                    t Days

    •   Total Days x Per Diem Amoun t     =Patient Costs
    •   Patient Costs - MA Paymen ts - Patient Paymen ts = Low-Inc
                                                                   ome Service Costs

                          Low Income Service Costs = L1UR
                               Total Hospital Costs

       During the course of this audit, the DPW, Office of Income Mainten
                                                                           ance (OIM)
provided the OIG with a Client Information System (CIS) data
                                                               dump showing State­
Operate d IMDs patients' MA eligibility. The OIG had OIM supply
                                                                  data for all patients
admitte d to the State-O perated IMDs during SFYs 2004-05 and
                                                                 2006-07, including
individu als between the ages of 22 and 64.

       As the Bureau of Financial Operations, Reimbu rsemen t Operati
                                                                            ons Section
(ROS) has no data entry capabil ities within CIS, the OIG incorrec
                                                                     tly applied the data
contain ed within CIS to the data used to bill MA for patients residing
                                                                         in the State­
Operate d (MDs. The OIG calculated the eligible MA days by
                                                                reviewing the eligibility
dates within the CIS data and determined there was a significa
                                                                  nt differen ce between
MA days calculated by DPWan d those calculated by the OIG.
                                                                   As per DPW policy,
ROS contact s the County Assista nce Office (CAO) to apply for
                                                                  MA benefits for clients
under 22 and over 64. Upon approval of eligibility, ROS bills
                                                                MA directly and
                                                                                       APPENDIX B
                                                                                         Page 3 of 4




Mr. Stephen Virbitsky                    -3-


records billing dates on the MA Charge Reconciliation Sheets provide to the OIG during
this audit.

       The DPW has reviewed the data used by the OIG to determine ineligible MA
days for individuals between the ages of 22 to 64, and also the MA days calculated for
patients under age 22 and over 64. Based on the CIS data, the DPW noted that for
patients under age 22 and over 64, there were several instances where CIS did not
show the patient as having updated MA eligibility; however, ROS billed MA and
received payment for these individuals during SFY 2006-07. Based on these billings
and receipts, ROS includes these patient days as MA days within the census data.

         Also, for the MA eligibility for patients between the ages of 22 to 64, the MA
eligibility dates should have been compared to the dates the client was a patient
committed to the State-Operated IMD. ROS has a policy in place to notify the CAO of
the MA client's admission to the State-Operated IMD if their age is between 22 and 64.
ROS does not charge MA for these patients during their commitment to the State­
Operated IMD. It is possible that the client would again be eligible for MA benefits upon
discharge from the State-Operated IMD. This may result in numerous eligibility periods
during a given fiscal year. The DIG did not compare the eligibility days within CIS to the
dates these clients were committed to the State-Operated IMDs, and also did not
compare the MA charges for clients 22-64 to the MA Charge Recon Sheets provided by
ROS. If this had been done, the OIG would have noted that there were no MA charges
for clients 22-64, as they are deemed by MA to be ineligible while institutionalized.

         The DPW is aware of the clarifications sent by CMS to the MA Program
Administrators regarding the determination of inmates; however, the DPW has always
viewed the State-Operated IMDs as medical facilities providing active treatment.
Therefore, the DPW will work with CMS to secure a determination on both the State­
Operated IMDs medical facility status and a more detailed determination regarding MA
eligibility for incarcerated patients, specifically juvenile offenders.

      Thank you for the opportunity to respond to this report. If you need any further
information, please contact Maranatha E. Earling, Bureau of Financial Operations, Audit
Resolution Section, at (717) 772-4911, or via e-mail atmearling@state.pa.us.




Enclosure
                                                                                                                               APPENDIX B
                                                                                                                                 Page 4 of 4 





                     Low-Income Utilization Rate (L1UR) Calculations for State-Operated Institutions for Mental Diseases



                                                        Total     Per      Patient     Medicaid      Patient     Low Income Total Hospital
                                                       .Qmi.§     Diem     Costs       Payments     Payments    Service Costs   Costs      L1UR

Allentown                                               58,987   $609.83 $35,972,042    288,064      848,927      34,835,051     37,012,989   94%

Clarks Summit                                           75,342   $589.81 $44,437,465    273,657     1,032,790     43,131,018     46,213,974   93%

Danville                                                60,232   $588.88 $35,469,420    380,565      907,682      34,181,173     36,980,606   92%

Mayview Psychiatric                                     88,704   $564.04 $50,032,604 453,437         872,509      48,706,658     51,547,141
Mayview Forensics                                       20,210   $75067 $15171 041 ~                  75,716      15,093,021     14,380,675
Mayview Total                                                            $65,203,645 455,741         948,225      63,799,679     65,927,816   97%

Norristown Psychiatric                                 102,531   $534.27 $54,779,237    710,080     1,174,448    52,894,709      56,921,441
Norristown Forensics                                    36,705   $733.58 $26926054     ------.11l      74,082    26,851 859      26,399488
Norristown Totai                                                         $81,705,291    710,193     1,248,530    79,746,568      83,320,929   96%

Torrance State Hospital                                 72,781   $555.87 $40,456,774    220,100     1,011,113     39,225,561     43,199,619   91%

Warren Psychiatric                                      53,368   $647.91 $34,577,661 293,579         643,199     33,640,883      36,939,744
Warren Forensics                                         8,950   $784.16 $7018232 _ _3_6              70046       6948150         7075444
Warren Total                                                             $41,595,893 293,615         713,245     40,589,033      44,015,188   92%

Wernersville                                            72,957   $58149 $42,423,766     868,651     1,225,183    40,329,932      44,492,469   91%
